No. 20–1534

In the Supreme Court of the United States
_____________

PATRICK DOUGHTY AND RANDY SEVERANCE,
v.

Petitioners,

STATE EMPLOYEES’ ASSOCIATION OF NEW HAMPSHIRE,
SEIU LOCAL 1984, CTW, CLC,

Respondent.

_____________

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the First Circuit
_____________
REPLY BRIEF FOR THE PETITIONERS
_____________
FRANK D. GARRISON

Counsel of Record

MILTON L. CHAPPELL
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
fdg@nrtw.org

Counsel for Petitioners
May 24, 2021

TABLE OF CONTENTS
Page(s)
Reply Argument .......................................................... 1
I. There is no Unanimity in the Courts of Appeals
over “the” Good-Faith Defense................................ 2
II. This Case is Exceptionally Important ................... 4
Conclusion ................................................................... 6

1
REPLY ARGUMENT
The issue here is whether a First Amendment compelled speech claim brought under 42 U.S.C. § 1983
requires a plaintiff to prove malice or lack of probable
cause. Pet. Br. i. It does not. There is no basis in the
First Amendment, this Court’s First Amendment
precedents, § 1983, or the common law for grafting a
malice or probable cause requirement onto a compelled speech claim under § 1983. The First Circuit’s
decision to bootstrap elements from inapt commonlaw torts onto petitioners’ First Amendment claim is
untenable and defies this Court’s precedents. Id. at
11–20.
Respondent does not confront petitioners’ argument that the First Circuit’s decision conflicts with
this Court’s precedents. But it instead reframes the
question presented and asserts there is a “consensus”
among lower courts that “the” good-faith defense is
available to private parties. Res. Br. i, 6–9. Yet neither
the First Circuit nor the Third Circuit in Diamond v.
PSEA, 972 F.3d 262 (3rd Cir. 2020), cert. filed, No. 201383 (2021), found an affirmative good-faith defense.
Both rejected an affirmative “good-faith” defense
based on “a then valid” state law and this Court’s repudiated Abood precedent. The lack of consensus in
the lower courts over what type of defense is available
to unions provides one of the reasons to grant, not
deny, certiorari.
Respondent likewise uses this reframing to argue
(at 10–11) pre-Janus agency fee cases are “most unusual” because this Court rarely overturns its precedents. But this obscures the First Circuit’s actual decision, which used a policy justification to add elements to petitioners’ First Amendment claim under
§ 1983. This reasoning not only defies this Court’s

2
precedents, but also undermines § 1983’s remedial
scheme. Certiorari is warranted for this reason as
well.
There is no Unanimity in the Courts of Appeals
over “the” Good-Faith Defense.
The First Circuit added elements to petitioners’
First Amendment claim for compelled-subsidization
of speech by plucking those elements from the inapt
common-law torts abuse of process and malicious
prosecution. Why? Because the court believed the respondent’s reliance interest justified it. App. 10. This
deductive reasoning is policy analysis masquerading
as legal analysis. And as petitioners demonstrated in
their petition, the decision conflicts with not only the
Court’s §1983, First Amendment, and Janus precedents—it also conflicts with this Court’s retroactivity
jurisprudence. Pet. Br. 11–20.1
Rather than confront the conflict between this
Court’s precedents and the First Circuit’s decision, respondent attempts to reframe the issue and argue
there is “total unanimity in the lower courts as to the
availability of the good-faith defense.” Res. Br. 6. To
the contrary, unlike several other circuit courts, the
First Circuit did not hold reliance interests entitle private defendants in § 1983 actions to an affirmative
good-faith defense. Indeed, the court went out of its
way to note that it did “not embark on a free-wheeling
1

Respondent tries reframing petitioners’ “merits” argument as
asking the Court to correct an “error” made by the lower court.
Res. Br. 9–10. But it is because that “error” conflicts with this
Court’s § 1983, First Amendment, and retroactivity precedents,
Pet. Br. 11–20, that petitioners presented a quintessential justification for this Court to grant certiorari. See S. Ct. R. 10(c).

3
assessment of whether to import into § 1983 a policy
based on protection of reliance interests.” App. 10. (citation omitted). The First Circuit, instead, grafted elements—malice and lack of probable cause—onto §
1983 First Amendment claims brought under Janus.
Nor did the Third Circuit recognize an affirmative
good faith defense in Diamond. Diamond was a fractured opinion in which two of the judges specifically
rejected an affirmative good-faith defense. Judge
Fisher rightly found “it is beyond our remit to invent
defenses to § 1983 liability based on our views of
sound policy.” 972 F.3d at 274 (Fisher, J., concurring).
Judge Phipps likewise found there is no basis for a
good-faith affirmative defense under § 1983. He found
this defense not only incompatible with § 1983’s text,
but also the common law and § 1983’s history and purpose. See id. at 285–91 (Phipps, J., dissenting). Only
Judge Rendell, writing for herself, found unions could
assert an affirmative good-faith defense based in policy considerations. Id. at 271; see also Pet. Br. 15, 16,
22.2
Thus, contrary to the respondent’s assertion, the
lower courts disagree over whether there is an affirmative good-faith defense to § 1983 First Amendment
claims brought under Janus. That disagreement is a
reason to grant, not deny, certiorari.

2 While the First Circuit did not hold respondents are entitled to an affirmative good-faith defense, that question is raised
in the Diamond petition for certiorari. Petition at i, Diamond v.
PSEA, (No. 20-1383). In the event the Court wants to resolve
both issues, these cases should be consolidated.

4
This Case is Exceptionally Important.
Respondent also argues this case is unimportant to
civil rights plaintiffs because the “circumstances”
where a private party “relies” on both this Court’s
overturned precedent and a law supported by that
precedent is unlikely to reoccur. Res. Br. 10–11. But
the First Circuit’s decision is not limited to those circumstances. It announced a broader legal rule that
adds new state-of-mind elements to a § 1983 First
Amendment claim based on policy considerations.
The First Circuit’s flawed reasoning could be applied whenever a new constitutional claim arises, and
a court does not think it good policy to apply the Constitution under § 1983. This reasoning not only defies
this Court’s precedents, but also undermines Congress’ remedial scheme.
Section 1983 “imposes liability upon ‘every person’
who, under color of state law or custom, ‘subjects, or
causes to be subjected, any citizen of the United States
. . . to the deprivation of any rights, privileges, or immunities secured by the Constitution and laws.” Owen
v. City of Indep., 445 U.S. 622, 635 (1980) (quoting 42
U.S.C. § 1983). The statute’s text reflects Congress’ intent to “provide protection to those persons wronged
by the misuse of power, possessed by virtue of state
law and made possible only because the wrongdoer is
clothed with the authority of state law.” Id. at 650.
Courts do not have a license to undermine the statute’s purpose by creating defenses or immunities to
§ 1983 actions based on policy. See Tower v. Glover,
467 U.S. 914, 922–23 (1984). “It is for Congress to determine whether § 1983 litigation has become too burdensome.” Id. at 923; see also Pet. Br. 7.

5
The First Circuit defied this principle by using policy considerations—respondent’s alleged reliance interests—to justify importing state-of-mind elements
into petitioners’ § 1983 First Amendment claim. There
is no limit to this reasoning because it permits courts
to create new elements to constitutional claims whenever a court believes it may be unfair to enforce § 1983
as Congress wrote it.
This is not a speculative concern. Lower courts
confront similar § 1983 claims as the one in this case.
Those cases likewise concern First Amendment claims
that would be susceptible to the First Circuit’s deductive reasoning. See, e.g., Apodaca v. White, 401 F.
Supp. 3d 1040 (S.D. Cal. 2019) (holding a university’s
mandatory student fee policy compelled students’
speech); see also Meriwether v. Hartop, 992 F.3d 492
(6th Cir. 2021) (finding a university’s policy requiring
a professor to use students’ preferred pronouns compelled speech and violated the First Amendment’s
Free Exercise Clause).
If a court does not think the required outcome will
be fair or equitable, nothing stops the court from rummaging in the common law to find a tort and importing that tort’s state-of-mind elements into the § 1983
claim. Without this Court’s intervention, this pretextual analysis may become commonplace. It is thus
important that the Court take this case and make
clear to the lower courts that this type of judicial policymaking has no place in interpreting Congress’ civil
rights laws.
* * * * *

6
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
FRANK D. GARRISON

Counsel of Record

MILTON L. CHAPPELL
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
fdg@nrtw.org

Counsel for Petitioners
May 24, 2021

